App. 123
APPENDIX N
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
UNITED STATES OF AMERICA,
Plaintiff,
v.

l:07-cv-0352

ROBERT L. SCHULZ;
WE THE PEOPLE FOUNDATION
FOR CONSTITUTIONAL EDUCA­
TION, INC.; and WE THE PEOPLE
CONGRESS, INC.,
Defendants.
THOMAS J. McAVOY
Senior United States District Judge
DECISION and ORDER
(Filed Aug. 9, 2007)
The United States of America commenced the in­
stant action seeking to enjoin Defendants from pro­
moting an illegal tax shelter. Presently before the
Court are Defendants’ motion to dismiss pursuant to
Fed. R. Civ. P. 12 and Plaintiff’s cross-motion for sum­
mary judgment pursuant to Fed. R. Civ. P. 56.
I.

FACTS

Defendant Robert L. Shulz (“Schulz”) organized
Defendant We the People Foundation for Constitutional

App. 124
Education Inc., and We the People Congress, Inc. in
1997. The Complaint alleges that, although Shulz pur­
ports to have founded the corporate defendants for ed­
ucational purposes, he “has used the two ... entities
... to market a nationwide tax-fraud scheme designed
to help customers evade their federal tax liabilities and
to interfere with the administration of the internal
revenue laws.” Compl. at f 6. Defendants distributed a
“Tax Termination Package” as part of “Operation Stop
Withholding” to help individuals stop withholding,
paying, and filing federal taxes. The United States al­
leges that Defendants furthered their scheme through
the use of false and misleading forms in place of stan­
dard Internal Revenue Service (“IRS”) forms, and
based upon the false premises that the federal income
tax system is voluntary, the 16th Amendment to the
United States Constitution, was not property ratified,
and that federal income tax does not apply to most
wages.
The Complaint alleges that, among other things,
“[a]s part of the Tax Termination scheme, Defendants
give customers (both employers and employees) stepby-step instructions on how to fraudulently terminate
withholding of federal income and employment taxes.”
Compl. at H 14. The entire scheme is alleged to be
premised upon false representations and legal posi­
tions known to have been rejected by the courts, in­
cluding a criminal trial in which Schulz testified. See
United States v. Simkanin. 420 F.3d 397 (5th Cir.
2005).

./

App. 125
The Complaint alleges that Defendants’ scheme
causes harm to the Untied States by assisting custom­
ers to evade taxes and obstructing the IRS’s efforts to
administer the federal tax laws. The United States
seek an injunction pursuant to Internal Revenue Code
§ 7408 precluding Defendants from making known
false or fraudulent statements in connection with the
organization or participation in the sale of a plan or
arrangement regarding any tax benefit.
Presently before the Court is Defendants’ motion
to dismiss pursuant to, Fed. R. Civ. P. 12 and Plaintiff’s
cross-motion for summary judgment pursuant to Fed.
R. Civ. P. 56.
II.

STANDARD OF REVIEW

Rule 56 of the Federal Rules of Civil Procedures
governs motions for summary judgment. It is well set­
tled that on a motion for summary judgment, the Court
must construe the evidence in the light most favorable
to the non-moving party, see Tenenbaum v. Williams.
193 F.3d 581, 593 (2d Cir. 1999), and may grant sum­
mary judgment only where “there is no genuine issue
as to any material fact and .. . the moving party is
entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(e). An issue is genuine if the relevant evidence is
such that a reasonable jury could return a verdict for
the nonmoving party. Anderson v. Liberty Lobby. 477
U.S. 242, 248 (1986). A party seeking summary judg­
ment bears the burden of informing the court of the
basis for the motion and of identifying those portions

App. 126
of the record that the moving party believes demon­
strate the absence of a genuine issue of material fact
as to a dispositive issue. Celotex Corp. v. Catrett. 477
U.S. 317, 323 (1986). If the movant is able to establish
a prima facie basis for summary judgment, the burden
of production shifts to the party opposing summary
judgment who must produce evidence establishing the
existence of a factual dispute that a reasonable jury
could resolve in his favor. Matsushita Elec. Indus. Co.
v. Zenith Radio Corp.. 475 U.S. 574,587 (1986). A party
opposing a properly supported motion for summary
judgment may not rest upon “mere allegations or deni­
als” asserted in his pleadings, Rexnord Holdings. Inc,
v. Bidermann. 21 F.3d 522, 525-26 (2d Cir. 1994), or on
conclusory allegations or unsubstantiated speculation.
Scotto v. Almenas. 143 F.3d 105,114 (2d Cir. 1998).
HI. DISCUSSION
a. Plaintiff’s Request for Injunctive Relief
“Section 7408 of the Internal Revenue Code em­
powers a district court to grant an injunction when
(1) the defendant has engaged in conduct subject to
penalty under 26 U.S.C. § 6700, and (2) injunctive re­
lief is appropriate to prevent recurrence of such con­
duct.” United States v. Gleason. 432 F.3d 678, 682 (6th
Cir. 2005). “Because section 7408 expressly authorized
the issuance of an injunction, the traditional require­
ments for equitable relief need not be satisfied ” Id.

App. 127
1. Internal Revenue Code § 6700
The Court will first address whether Defendant’s
conduct implicates the proscriptions of 26 U.S.C.
§ 6700.1 Section 6700 is aimed at abusive tax shelters.
To obtain an injunction under § 6700, the government
must prove five elements:
(1) the defendants organized or sold, or partic­
ipated in the organization or sale of, an entity,
plan, or arrangement; (2) they made or caused
to be made, false or fraudulent statements
concerning the tax benefits to be derived
from the entity, plan, or arrangement; (3)
they knew or had reason to know that the
1 That section reads, in relevant part, as follows:
(a) Imposition of penalty. - Any person who (1)(A) organizes (or assists in the organization of) (1) a partnership or other entity,
(ii) any investment plan or arrangement, or
(iii) any other plan or arrangement, or
(B) participates (directly or indirectly) in the sale of any interest
in an entity or plan or arrangement referred to in subparagraph
(A), and
(2) makes or furnishes or causes another person to make or fur­
nish (in connection with such organization or sale) (A) a statement with respect to the allow-ability of any de­
duction or credit, the excludability of any income, or the se­
curing of any other tax benefit by reason of holding an
interest in the entity or participating in the plan or arrange­
ment which the person knows or has reason to know is false
or fraudulent as to any material matter, or
(B) a gross valuation overstatement as to any material
matter,
shall [be guilty of a crime].

App. 128
statements were false or fraudulent; (4) the
false or fraudulent statements pertained to a
material matter; and (5) an injunction is nec­
essary to prevent recurrence of this conduct.
United States v. Estate Preservation Servs.. 202 F.3d
1093, 1098 (9th Cir. 2000); Gleason. 432 F.3d at 682.
The Court will address each element seriatim.
a. Whether Defendants Organized
or Sold, or Participated in the’ Or­
ganization or Sale of, an Entity,
Plan, or Arrangement
Under § 6700, “any ‘plan or arrangement’ having
some connection to taxes can serve as a tax shelter’ and
will be an ‘abusive’ tax shelter if the defendant makes
the requisite false or fraudulent statements concern­
ing the tax benefits.” United States v. Raymond, 228
F.3d 804,811 (7th Cir. 2000). In Raymond, the Seventh
Circuit found that “the definition of a tax shelter in
§ 6700 is ‘clearly broad enough to include a tax pro­
tester group.’ ” Id. (quoting United States v. Kaun. 827
F.2d 1144,1147 (7th Cir. 1987)).
The facts in the Raymond case are quite similar to
the present one.
Raymond and Bernhoft [were] active mem­
bers of the U.S. Taxpayers Party and were
the chief participants in a business known
as Morningstar Consultants (“Momingstar”).
Between January and June of 1996, Mom­
ingstar ran a weekly advertisement in a local

App. 129
Wisconsin newspaper under the caption “Just
Say No.” The Just Say No advertisement con­
tained the following statements: 1) “Federal,
State & Social Security Taxes are Voluntary;”
and 2) “The Internal Revenue Service has no
Statutory Authority to: Compel you to Me a
Tax Return, Require withholding from your
paycheck, Levy or Lien your property, Audit
your Books & Records.” This advertisement
was part of an effort by Morningstar to mar­
ket the “De-Taxing America Program” (the
“Program”). The Program consists of three
volumes of materials. These materials contain
information presenting the view that, among
other things, the federal income tax is uncon­
stitutional and that persons who are not fed­
eral employees or residents of the District of
Columbia are not legally required to pay fed­
eral income tax. In addition to providing in­
formation regarding general tax-protest
principles, the Program includes several
forms and instructions to guide the purchaser
through the process of “de-taxing.” Purchasers
are informed that if they complete the mate­
rials and directions in the Program they will
be “withdrawn” from the jurisdiction of the
federal government’s taxing authorities and
the social security system and will no longer
be required to pay federal taxes.... Program
customers are instructed to file W-4 forms
with their employers asserting that they are
exempt from federal taxation and requesting
that the employers stop withholding federal
income tax and social security payments from
their paychecks....

App. 130
The Program also provides the purchaser
with instructions on how to complete future
tax returns to reflect that the purchaser has
not incurred any tax liability in the previous
year and consequently does not owe any fed­
eral income or social security taxes.
Id. at 806-07. “The Program purported to provide stepby-step instructions for ‘removing’ the purchaser from
the federal income and social security tax systems. The
Program materials assured readers that the federal
government is without authority to tax them and that
by following the instructions outlined in the Program
individuals can legally refuse to pay federal income
and social security tax.” Id. at 811. The Seventh Circuit
concluded that the program was a tax shelter. The
Raymond court further found that because the defen­
dants in that case had sold the product, it qualified as
a plan within the meaning of § 6700.
Here, as in Raymond. Schulz has organized the
two corporate Defendants. See Defi’s Stmnt. of Mat.
Facts at H 1. Defendants offer materials to employees
and employers stating that, among other things, Con­
gress is without authority to legislate an income tax on
people except in the District of Columbia and United
States territories, the IRS is prohibited from compel­
ling people to sign and file income tax returns, and the
Sixteenth Amendment to the United States Constitu­
tion was never properly ratified and, therefore, the in­
come tax violates the Constitution, Schulz Decl. #1 at
Ex. B. Among other things, Defendants’ materials in­
struct workers how to terminate their W-4 Agreement

App. 131
and demand that the employer discontinue making
withholdings from their pay. Id. at Ex. C. In fact, De­
fendants provide forms for that very purpose. Id.2
Thus, the Court finds that Defendants have organized
a “plan” or “arrangement.” Although there are some
questions of fact concerning whether Defendants sold
their materials, they clearly “organized” the materials
for presentation.3 Defendant Schulz admits that he
undertook “‘Operation Stop Withholding,’ a national
2 Other examples of Defendants’ plan are set forth infra at
pp. 9-10 and 22-23.
3 The evidence in the record is that Defendants provided the
program materials and gave seminars for free. The evidence also
demonstrates that Defendants used the materials to solicit dona­
tions to the organizations and to encourage people to join their
organization for a fee. In a prior case involving Defendant Schulz,
it was noted that
We The People Foundation’s website invites visitors to
make a donation to an organization via credit card to
PayPal or by mail directly to We the People Founda­
tion. The address given for the We The People Founda­
tion is Schulz’s home address. The website also
contains an on-line store where products can be pur­
chased through PayPal. One of the products sold over
the website is the “Tax Termination Package,” which is
offered for sale for $39.95. The product is described as
“Bob Schulz, Chairman of the We The People Founda­
tion, stopped paying income taxes and filing returns.
These are the materials he sent to the IRS. Make sure
to get a copy for your personal records.” [The IRS] has
also learned that the We The People Foundation filed
IRS Form 990 for the years ending December 31, 2001,
December 31,2002, and December 31,2003 and the re­
turns indicate that the organization showed considera­
ble revenue for each year.
Schulz v.U.S.. 2006 WL 1788194, at *1 (D.Neb.2006).

App. 132
campaign to instruct company officials, workers and
independent contractors on how to legally stop wage
withholding.” Schulz Decl. #1 at 1 4. Defendants also
offer to provide a “customized legal opinion letter from
an attorney or CPA to be sent to your company or their
tax and/or legal advisors.” Schulz Decl. #1 at Ex. C,
p. 11. Stated otherwise, Defendants are promoting an
abusive tax shelter. Accordingly, the first element is
satisfied because Defendants organized a plan or ar­
rangement concerning the avoidance of taxes.
b. Whether Defendants Made or
Caused to be Made, False or Fraud­
ulent Statements Concerning the
Tax Benefits to be Derived From the
Entity, Plan, or Arrangement
“[T]o prove a violation of § 6700, the Government
must also show that the [defendants] made false or
fraudulent statements concerning the tax benefits of
participating in the plan or arrangement.” Raymond,
228 F.3d at 812. “Two types of statements fall within
the statutory bar: statements directly addressing the
availability of tax benefits and those concerning fac­
tual matters that are relevant to the availability of tax
benefits.” United States v. Campbell. 897 F.2d 1317,
1320 (5th Cir. 1990). Once again, referral to Raymond
is instructive. In that case, the Seventh Circuit found
that the defendants’ statements that “payment of in­
come tax is a voluntary activity and that individuals
cannot be legally compelled to file tax returns or sub­
mit to tax investigations or penalties” “are clearly false

App. 133
representations concerning the government’s author­
ity to tax its citizens.” Id. That court concluded that
“[t]hese statements made in conjunction with the sale
of the Program operated as false assurances that re­
fusing to pay taxes in accordance with the Program’s
instructions is a lawful activity for which the govern­
ment has no legal authority to punish Program sub­
scribers.” Id.
Defendants’ conduct here is virtually identical to
that in Raymond. Defendants make claims similar to
those in Raymond. Among other things, Defendants af­
firmatively state that domestic income is not taxable,
the filing of a tax return is voluntary, see Defs’ Mem. of
Law at 10; Schulz Decl. #1 at Ex. B, p. 14, and that the
16th Amendment was not properly ratified and, there­
fore, the income tax is unconstitutional.4 Defendants
also instruct that, “[o]nce the government has been
properly notified and termination of withholding has
been procedurally put into effect, the [employer] has no
further reporting requirements under U.S. law.” Schulz
Decl. #1 at Ex. C, p. 8. Defendants further claim that
the IRS is prohibited by the Fourth and Fifth Amend­
ments from compelling people to sign and file income
tax returns. Schulz Decl. #1 at Ex. C. Defendants also
claim that they, and other taxpayers, have the right to
“retain! ] [their] money until [their] grievances are
redressed (remedied).” Schulz Decl. #1 at Ex. H, i. 2.5
4 Other false statements are discussed infra at pp. 22-23.
6 Defendants sent a long list of questions to various govern­
ment agencies demanding answers. It is Defendants’ position
that, until the government responds, it need not pay taxes.

)

App. 134
These are all false statements of fact. See 26 U.S.C.
{SJ3102 (requiring employers to make deductions from
wages); Raymond. 228 F.3d at 812 (discussing various
similar false statements about taxes); Schiff v. United
States. 919 F.2d 830 (2d Cir. 1990); United States v.
Sitka. 845 F.2d 43, 47 (2d Cir. 1988) (“[FJederal courts
have upheld and relied on the Sixteenth Amendment
for more than seventy-five years.... The Sixteenth
Amendment was proposed by Congress and ratified
by the states in accordance with procedures set out in
Article V of the Constitution, and its ratification was
then certified after careful scrutiny by a member of the
executive branch acting pursuant to statutory duty.
The validity of that process and of the resulting consti­
tutional amendment are no longer open questions.”)'
(internal citations omitted); Coleman v. Commissioner
of Internal Revenue. 791 F.2d 68, 70-72 (7th Cir. 1986)
(statements that wages are not income and that the
income tax is unconstitutional are false and “tired ar­
guments”); United States v. Carlev. 783 F.2d 341, 344
(2d Cir. 1986) (“[T]here is no question but that Con­
gress has the authority to impose an income tax.’“)
(quoting Ficalora v. Commissioner. 751 F.2d 85, 87 (2d
Cir. 1984)); Ficalora. 751 F.2d at 88 (wages are taxable
income); Kile v. Commissioner of Internal Revenue.
739 F.2d 265, 267-68 (7th Cir. 1984) (similar to Cole­
man): Denison v. Commissioner of Internal Revenue.
751 F.2d 241 (8th Cir. 1984) (similar); Wright v. Com­
missioner of Internal Revenue. 752 F.2d 1059, 1062
(5th Cir. 1985) (claim that tax returns violate the
right against self-incrimination is frivolous); see also
Allambv v. United States. 207 Fed. Appx. 7, 9 (2d Cir.

App. 135
2006) (“[Arguments that the federal income tax is un­
constitutional and that wages are not taxable income”
have been “long-rejected”); Stearman v. Commissioner
of Internal Revenue. T.C. Memo. 2005-39, 2005 WL
488646 (March 3, 2005), aff’d. 436 F.3d 533 (5th Cir.
2006).
Moreover, it is evident that Defendants’ false
statements concern the tax benefits to be derived from
the plan. As Defendants’ literature makes clear, their
campaign includes “instructions for companies, work­
ers and independent contractors on how to legally stop
withholding, filing land paying the tax” Schulz Decl.
at Ex. C., p. 3 (emphasis added). The obvious claimed
benefit from participating in Defendants’ plan is that
individual income taxes need not be paid. Further, De­
fendants advise employers that they can “eliminate
payment of‘matching* employment taxes (FICA, etc.),”
id. at p. 7, another claimed tax benefit from participat­
ing in the plan.
The undisputed evidence further demonstrates
that Defendants knew, or had reason to know, that
their statements were false. See Estate Preservation
Servs.. 202 F.3d at 1102. “The ‘knew or had reason to
know’ standard . . . includes what a reasonable person
in the defendant’s subjective position would have dis­
covered.” Estate Preservation Servs.. 202 F.3d at 1103.
The following factors are relevant in determining
whether a defendant had the requisite scienter to vio­
late § 6700: (1) the extent of the defendants’ reliance
upon knowledgeable professionals; (2) the defendants’

App. 136
level of sophistication and education; and (3) the de­
fendants’ familiarity with tax matters. Id.
There is a paucity of evidence, if any, suggesting
that Defendants relied upon knowledgeable profes­
sionals. To the contrary, the evidence is that they relied
on fringe opinions of known tax protestors whose the­
ories have repeatedly been rejected by courts across
the country. Several of the people on whom Defendants
claim to rely have been convicted of tax crimes. Accord­
ingly, this factor weighs in favor of finding the requisite
intent.
Turning to the second and third factors, a search
of case law reveals that Defendant Schulz has been
litigating tax-related issues, and presenting similar
arguments, for a long time. Schulz states in his Dec­
laration #3 that he has extensive experience research­
ing, writing briefs and arguing cases against “wayward
government” in state and federal courts. Schulz Decl.
#3 at M 11-13. He specifically states he has significant
experience researching and arguing tax-related issues.
See generally id. Accordingly, Defendants have suffi­
cient sophistication and education to be held account­
able for their actions.6
Furthermore, Defendants have long been involved
with these tax-related arguments. Defendant Schulz
acknowledges that he is aware that numerous courts
across the country have rejected attacks on the Six­
teenth Amendment as improperly ratified. See Schulz
6 Inasmuch as Schulz operates the two corporate entities, his
knowledge may be imputed to them.

App. 137
Decl. #3 at 1 21. He also admits being aware of various
Circuit Court of Appeals decisions rejecting the types
of claims he makes in his materials. IcL at M 23-24. In
addition, the obligation to pay taxes is common
knowledge. As the Second Circuit has stated, “‘[t]he
payment of income taxes is not optional... and the av­
erage citizen knows that the payment of income taxes
is legally required’.” Schiff 919 F.2d at 834 (quoting
United States v. Schiff. 876 F.2d 272, 275 (1989)). It is
thus clear that Defendants actually knew, and cer­
tainly had reason to know, their statements were false.
Defendant claims that it has not made any false
or fraudulent statements because it provided a dis­
claimer in its materials. Defendants’ materials state
that:
The materials presented herein contain legal
content referencing and directly citing official
U.S. tax statutes, tax regulations and federal
court decisions regarding the limited author­
ity of the U.S. Government to impose income
taxes or withholding, and the legal duties and
obligations (or lack thereof) that are allegedly
imposed upon American business and the
Americans that labor for them.
These materials are presented solely for
educational purposes. Although these ma­
terials may be used in attempting to secure
and exercise one’s Constitutionally protected
Rights ... We The People makes NO represen­
tation that there materials constitute legal
advice and furthermore specifically encour­
ages all workers and business owners to

App. 138
submit these materials to qualified legal
counsel for review and advice.
Schulz Decl. #1 at Ex. C, p. 1.
The fact that’ Defendants purport to contain dis­
claimers in their materials is irrelevant. “[I]t is well
established that a general, boilerplate disclaimer of
a party’s representations cannot defeat a claim for
fraud.” Dallas Aerospace. Inc, v. CIS Air Corp.. 352 F.3d
775, 785 (2d Cir. 2003). Significantly, the purported
disclaimer is insufficient for several reasons. First, no­
where do Defendants’ materials disclaim the basis for
their claims concerning the tax laws. Rather, Defen­
dants merely “encourage” people to have the material
reviewed by “qualified legal counsel.” Second, although
the materials are claimed to be presented only for ed­
ucation purposes, the materials affirmatively state
that they are based on “legal content” “directly citing”
various laws and court opinions. This gives the impres­
sion that the statements in the documents are based
upon a sound legal foundation. Third, the purported
disclaimer says that the materials may be used in at­
tempting to secure and exercise one’s Constitutionally
protected Rights.” This could be construed as con­
sistent with Defendants’ position that the federal gov­
ernment may not impose an income tax because,
among other arguments, the Sixteenth Amendment
was not properly ratified. The “disclaimer,” therefore,
appears not to disclaim at all. Fourth, the materials
provided by Defendants represent that “[t]he infor­
mation is the result of research by tax attorneys and
CPA’s, a forensic accountant; a Special Agent of the

App. 139
Criminal Division of the IRS, a former Revenue Agent
of the IRS, a former IRS Auditor and Fraud Examiner,
a constitutional attorney and numerous expert tax law
researchers and certified paralegals". Schulz Decl. #1,
at Ex. C, p. 5. This, again, detracts from the effective­
ness of any purported disclaimer. Fifth, it appears that
the: “disclaimer” appears on Defendants’ website, but
it is not clear whether it appears on all, the distributed
materials. For example, no such disclaimer is included
on the “Statement of Facts and Beliefs.” Schulz Decl.
#1 at. Ex. B. The Court, therefore, finds the claimed
“disclaimer” to be irrelevant. Thus, the second element
has been satisfied.
c. Whether the False or Fraudulent
Statements Pertained to a Material
Matter
The next issue is whether these false statements
pertained to a material matter. “Material matters are
those which would have a substantial impact on the
decision-making process of a reasonably prudent in­
vestor and include matters relevant to the availability
of a tax benefit.” Campbell. 897 F.2d at 1320. State­
ments that one need not file tax returns, that employ­
ers need not make withholdings, that “companies,
workers and independent contractors [can] . .. legally
stop withholding, filing and paying the tax,” Gordon
Aff, at Ex. 4, etc. clearly are relevant to the availability
of the tax benefit and, thus, are material. Indeed, De­
fendants’ statements appear to be the cause of its cli­
ents/members in failing to file tax returns or otherwise

App. 140
attempting to stop having taxes withheld from their
wages.7 The third element has been satisfied.
d. Whether an Injunction is Neces­
sary to Prevent Recurrence
The final element is whether an injunction is nec­
essary to prevent recurrence.
Factors that a court may consider in deter­
mining the likelihood of future Section 6700
violations and, thus, the need for an injunc­
tion include: (1) the gravity of the harm
caused by the offense; (2) the extent of the de­
fendant’s participation; (3) the defendant’s de­
gree of scienter; (4) the isolated or recurrent
nature of the infraction; (5) the defendant’s
recognition (or non-recognition) of his own
culpability; and (6) the likelihood that defen­
dant’s occupation would place him in a

7 In support of this, the United States has provided copies of
Defendants’ "We The People” tax forms that have been submitted
to the IRS or their employers by various individuals. Gordon Aff.
at Exs. 27, 28. Defendants also have submitted affidavits from
Defendants’ members indicating that they have stopped paying
taxes. See Deitz Decl. #1 at H 13. Moreover, Defendants’ own sub­
missions reveal that people have acted upon Defendants’ advice.
See Schulz Decl. #1 at Ex. H, p. 2 (“Another case involves as group
of 12 oil workers in Arkansas that recently sought to terminate
their withholding agreements (W-4s) en masse, by submitting
WTP [We The People] Form #1 to their company.”). Other exam­
ples are listed in Schulz Decl. #1 at Ex. H (“[W] e are hearing daily
about many individuals that have filed the forms....”).

App. 141
position where future violations could be an­
ticipated.
Estate Preservation Servs.. 202 F.3d at 1105.
(1) The Gravity of Harm
The gravity of harm is manifest. Defendants have
embarked upon a nationwide plan to disseminate its
materials to encourage people to stop having taxes
withheld from their wages. Defendants’ materials are
intended to cause employees to believe that they need
not pay an income tax and employers to believe that
they need not withhold taxes from employees’ wages
or pay matching amounts. As previously noted, people
are acting upon Defendants’ materials by submitting
forms supplied and created by Defendants in an effort
to get their employers to stop withholding taxes from
their wages. This is causing individuals to expose
themselves to criminal liability. Defendants’ conduct
also is causing insufficient payments to the United
States Treasury. Lastly, Defendant& conduct is caus­
ing the IRS significantly increased efforts at collecting
taxes. Although the exact cost of Defendants’ conduct
appears to be unknown, the IRS estimates that it
spends $1,607 in processing substitutes for returns for
non-filers and, therefore, “[t]he estimated cost to the
U.S. Treasury attributable to filing substitutes for re­
turns for the 2991 unified returns equals $4,806,537,®

8 As is explained below, the United States asserts that 997 of
Defendants’ customers have not filed federal tax returns for a

App. 142
excluding the time or expense IRS Revenue Officers
must expend attempting to collect unpaid taxes from
these individuals. Gordon Aff. at f 40. Thus, the grav­
ity of the harm is sufficient to warrant injunctive relief.
See Raymond. 228 F.3d at 813 (evidence of the admin­
istrative burden placed on the IRC to investigate the
tax evasion activities and engage in collection efforts
establishes harm).
(2) The Extent of Defendants’ Par­
ticipation
This factor clearly weighs in favor of an injunction.
Defendants are the primary figures in establishing the
plan and encouraging other to. participate in it. See
Raymond. 228 F.3d at 814.
(3) Degree of Scienter
The degree of scienter element also weighs in fa­
vor of injunctive relief. As previously discussed supra,
Defendants were well aware (or reasonably should
have been aware) that their assertions have been con­
sistently rejected by the courts. Nevertheless, Defen­
dants set up their plan, disseminated it, and fully
expected that people would buy, or freely download,
their materials and use them, In fact, Defendants
claim (which is supported by the evidence submitted
by the United States) that people have used their
period of three years, which represents more than 2,991 unfiled
tax returns. Gordon Aff. at 1 38.

App. 143
forms to stop having taxes withheld from their wages.
Thus, there is ample evidence that Defendants in­
tended that their members and others would follow the
instructions provided in the materials and submit the
forms contained therein. LL
e. Isolated or Recurrent Nature of
the Infraction
The record evidence is that Defendants’ conduct is
not isolated. According to Defendants’ own documents,
Schulz “has now spoken to well over two thousand
people as part of ‘Operation Stop Withholding* and
continues to be greeted by appreciative and attentive
audiences everywhere.” Schulz Decl. #1, at Ex. H, p. 1.
Moreover, Defendants admit to having handed out
“3,500 copies” of the “blue folder”9 “at 37 meetings in
2003 and that [they] put the entire contents of the ma­
terials on the website for anyone to read, download and
copy. ...” Defs.’ Responsive Stmnt. of Mat. Facts at H 4.
The United’ States submits evidence that “997 of de­
fendants’ customers . .. have not filed federal tax re­
turns for a period of three years or more, which
represents more than 2991 unified tax returns.” Gordon
Aff. at *j[ 38. Accordingly, this factor also weighs in favor
of issuance of an injunction. See Raymond. 228 F.3d at
814.

9 The “blue folder” contains the materials prepared by De­
fendants and discussed throughout this opinion.

App. 144
f. Defendants’ Recognition (or non­
recognition) of Their Own Culpability
Defendants express no recognition of their culpa­
bility. Despite the uniform rejection of their positions,
they continue to maintain them and attempt to get oth­
ers to adopt their views. As in Raymond. Defendants
have “consistently held to their view that federal tax
laws are unconstitutional and that the government
has no authority to compel the payment of federal
taxes.” 228 F.3d at 814. Defendants also continue to
claim that they may withhold money from the govern­
ment until the government responds to its “petition for
redress.” Given Defendants’ long-time pursuit of these,
goals, it is easy to conclude that they are likely to con­
tinue to engage in their conduct if not enjoined from
doing so. Id. Indeed, Defendants’ materials continue to
be available via their website and the mails.
g. The Likelihood that Defendants’
Occupation Would Place Them in a
Position Where Future Violations
Could Be Anticipated.
Lastly, although Defendants are not professional
tax advisers, Defendants’ own papers demonstrate
that they spend a substantial amount of time, money,
and effort promoting their plan. Their main purpose is
to continue to disseminate their plan and encourage
employees and employers alike to participate. It is a
virtual certainty that, absent injunctive relief, future
violations can be anticipated.

App. 145
For the foregoing reasons, the Court finds that in­
junctive relief is warranted.
b. First Amendment
Defendants move to dismiss and otherwise defend
this action on the ground that their speech is protected
by the First Amendment. Defendants argue that their
tax-related materials are discussions of the manner in
which government is operated and, therefore, constitu­
tionally protected. Defendants further claim that their
speech constitutes the lawful exercise of, the right to
petition the government.
A very similar argument was presented to the
Ninth Circuit in United States v. Freeman. 761 F.2d
549 (9th Cir. 1985). In that case, as here, it was alleged
that the defendant “counseled violations of the tax
laws at seminars he conducted.” Id. at 551. “He urged
the improper filing of returns, demonstrating how to
report wages, then cross out the deduction line for ali­
mony and insert again the amount of the wages, show­
ing them as ‘nontaxable receipts.’ ” Id. The defendant
claimed “he did nothing more than advocate tax noncompliance as an abstract idea, or at most as a remote
act, and that the First Amendment necessarily bars his
prosecution.” Id.
The Ninth Circuit noted that:
Words alone may constitute a criminal of­
fense, even if they spring from the anterior
motive to effect political or social change.
Where an indictment is for counseling, the

App. 146
circumstances of the case determine whether
the First Amendment is applicable, either as
a matter of law or as a defense to be consid­
ered by the jury; and there will be some in­
stances where speech is so close in time and
substance to ultimate criminal conduct that
no free speech defense is appropriate....
Where there is some evidence . . . that the
purpose of the speaker or the tendency of his
words are directed to ideas or consequences
remote from the commission of the criminal
act, a defense based on the First Amendment
is a legitimate matter for the jury’s consider­
ation.
Freeman. 761 F.2d at 551. Where, on the other hand,
there is evidence that the defendant assisted in the fil­
ing of false returns, there is no First Amendment de­
fense. Id. at 552. The Freeman court continued to note
that:
Though a statute proscribes certain speech, in
this case counseling, the defendant does not
have a First Amendment defense simply for
the asking. Counseling is but a variant of the
crime of solicitation, and the First Amend­
ment is quite irrelevant if the intent of the ac­
tor and the objective meaning of the words
used are so close in time and purpose to a sub­
stantive evil as to become part of the ultimate
crime itself. United States v. Barnett. 667 F.2d
835, 842-43 (9th Cir. 1982); fUnited States v.l
Buttorff. 572 F.2d [619] at 624 [(8th Cir.
1978)]. In those instances, where speech be­
comes an integral part of the crime, a First

App. 147
Amendment defense is foreclosed even if the
prosecution rests on words alone. '
Id.
The Second Circuit agreed with this line of reason­
ing in United States v. Rowlee. 899 F.2d 1275 (2d Cir.
1990). In Rowlee. the Second Circuit noted that
a i
speech is not protected by the First Amendment
when it is the very vehicle of the crime itself.’ ” 899 F.2d
at 1278 (quoting United States v. Varani. 435 P.2d 758,
762 (6th Cir. 1970)). Similar to the Ninth Circuit’s
analysis in Freeman, the Second Circuit noted that:
[C]onduct [is] not protected by the First
Amendment merely because, in part, it may
have involved the use of language. When
speech and nonspeech elements are combined
in the same course of conduct, a sufficiently
important governmental interest in regulat­
ing the nonspeech element can justify inci­
dental limitations on First Amendment
freedoms.
Id. (internal quotations, alterations, quotations, and
citations omitted). To the extent one comments “gener­
ally on the tax laws without aiding, assisting, procur­
ing, counseling or advising the preparation or
presentation of the alleged false or fraudulent tax doc­
uments,” he does not violate the Internal Revenue
Code. Id at 1280. If, however, a defendant urges the
preparation and presentation of false IRS forms with
the expectation that the advice will be heeded, “the
First Amendment afford[s] no defense.” Id; see also
United States v. Konstantakakos. 121 Fed. Appx. 902

App. 148
(2d Cir. 2005) (Noting that “it has long been estab­
lished that the First Amendment does not shield know­
ingly false statements made as part of a scheme to
defraud” and that “[n]o different conclusion is war­
ranted simply because a knowing falsehood might be
couched as an ‘opinion’.”).
Much of Defendants’ conduct is protected speech.
For example, Defendants are free to give speeches on
whether the Sixteenth Amendment was properly rati­
fied. The, Court further understands that any injunc­
tive relief will be a prior restraint. Nevertheless, as
discussed, Defendants’ scheme violates § 6700 of the,
Internal Revenue Code. It is Defendants’ “speech” (pri­
marily’ its written materials) that facilitates the viola­
tion of §6700.
To the extent Defendants’ speech can be consid­
ered commercial speech,10 it may be enjoined because
the government may prohibit false, misleading or de­
ceptive commercial speech, or speech that promotes
unlawful, conduct. United States v. Bell. 414 F.3d 474,
480 (3d Cir. 2005); United States v. Schiff. 379 F.3d 621,
10 Several facts suggest that the speech may be considered
commercial. This includes the following: (1) Defendants request a
“donation” for each packet of materials they provide; (2) Defen­
dants invite individuals to become members of their organization
for a fee; Gordon Aff. at Ex. 20; (3) Defendants offer numerous
items for, sale, including videos, pamphlets, CD-ROMs, bumper
stickers, brochures, flags, etc., see i<L; (4) Defendants offer to sell
a “customized legal opinion letter from an attorney or CPA” (not­
ing “discounts are available for WTP Congress members”), Schulz
Decl. #1, at Ex. C, p. 11; and (5) Defendants advertise their pro­
gram.

I

App. 149
626 (9th Cir. 2004).11 Even assuming Defendants are
not intending to profit from their services, they are of­
fering a product that is based on false representations.
Defendants seek to have people obtain and use copies
of their tax avoidance program based upon false repre­
sentations. Defendants sell numerous other products
on their websites. Although Defendant may sometimes
give their materials away for free, they do solicit a do­
nation of $20 for each packet of materials they provide.
Thus, if the materials are properly characterized as
commercial speech, they may be enjoined and the First
Amendment provides no defense.
Assuming Defendants’ speech to be political in na­
ture, it still may be enjoined. The First Amendment
does not protect speech that incites imminent lawless
action. Brandenburg v. Ohio. 395 U.S. 444, 447 (1969).
Because Defendants are not merely advocating, but
have gone the extra step iv instructing others how to
engage in illegal activity and have supplied the means
of doing so (the “We The People” forms created by De­
fendants supported by a purported legal analysis of the
tax laws), their speech may be enjoined. See United
States v. Schiff. 269 F. Supp.2d 1262, 1280 (D. Nev.);
see also United States v. Bell. 414 F.3d 474 (3d Cir.
2005); Raymond. 228 F.3d at 815-16; United States v.
Fleschner. 98 F.3d 155, 158-59 (4th Cir. 1996) (no first
amendment protection where the defendants held
meetings and collected money from attendees whom
they instructed and advised to claim unlawful
11 The Court already has concluded that many of Defendants’
statements are false.

App. 150
exemption and not to file income tax returns or pay tax
on wages in violation of the law.); United States v.
Moss. 604 F.2d 569, 571 (8th Cir. 1979); United States
v. Kellev. 769 F.2d 215, 217 (4th Cir. 1985) (‘The cloak
of the First Amendment envelops critical, but abstract,
discussions of existing laws, but lends no protection to
speech which urges the listeners to commit violations
of current law.”); United. States v. Buttorff 572 F.2d
619, 624 (8th Cir. 1978) (“[T]he defendants did go be­
yond mere advocacy of tax reform. They explained how
to avoid withholding and their speeches and explana­
tion incited several individual to activity that violated
federal law....”).
As previously noted, the government has pre­
sented evidence that Defendants gave lectures, col­
lected money in the form of donations and membership
fees, provided forms with instructions on the prepara­
tion of the forms, and provided statements supporting
their false legal beliefs/conclusions. See e.g. Gordon
Decl: at Ex. 4 (“Our national campaign will include in­
structions for companies, workers and independent
contractors on how to legally stop withholding, filing
and paying the tax.”); id at Ex. 5 (“Many of you will
discover the [employer] has been negligently advised
by its so-called ‘tax professionals’ (attorneys and
CPA’s) who falsely claim the law requires the Entity to
obtain your social security number’ or the law requires
the Entity to withhold’....”); id. at Ex. 6 (“The Individ­
ual Income Tax is fraudulent in its origin and enforced
without legal authority and without legal jurisdiction
on most Americans and American entities.... Under

App. 151
U.S. tax law you may legally stop withholding taxes
and employment taxes, plus legally stop issuing W-2
and 1099 forms to your workers and payees/contrac­
tors. ... Eliminate payment of‘matching* employment
taxes (FICA, etc.)”); id. at Ex. 8 (“You will utilize the
[We The People] Forms to willfully and legally cease
withholding, deducting and diverting any portion of a
worker’s .. . earnings to pay any tax, fee or other
charge....”); id. at Ex. 9 (a form created by Defendants
and intended to be signed by employees which states
“I do not derive Subtitle A wage Gross Income ... and
my remuneration does not constitute wages for with*
holding purposes under IRC § 3401(a)(8)(A)(I)” and “I
do not derive taxable income . . . from a taxable
source. ... I am outside the venue and the jurisdiction
of 26 USC and 26 CFR,” and “I incurred no liability for
income tax imposed under subtitle. A of the Code for
the preceding year.”); id* at Ex. 10 (a form created by
Defendants and intended to be signed by, employers
which states “[lit is the Entity’s understanding that no
American living in a state is ‘subject to the jurisdiction
of Congress,’ generally speaking, unless one is a non­
resident alien involved in immigration proceedings or
nonresident employee....”). The government also has
supplied evidence of Defendants’, clients or members
using Defendants’ materials to avoid tax withholdings,
failing to file tax returns, or from otherwise refusing to
pay money to the government. See Gordon Decl. at
33, 36, 37, 38 and Exs. 26, 27, 28. Because Defen­
dants have actually persuaded others, directly or indi­
rectly, to violate the tax laws, Defendants words and
actions were directed toward such persuasion, and the

App. 152
unlawful conduct was imminently likely to occur, the
First Amendment does not afford protection. That be­
ing said, any injunction must be narrowly drawn to
separate protected speech from unprotected speech
and to protect Defendants’ First Amendment rights.
Accordingly, the Court rejects Defendants’ First
Amendment defense and denies their motion to dis­
miss in its entirety.
IV. CONCLUSION
For the foregoing reasons, Defendants’ motion to
dismiss is DENIED and Plaintiff’s Cross-Motion for
Summary Judgment is GRANTED.12
Accordingly, it is hereby ORDERED that:
a.

Defendants and their representatives; agents,
servants, employees, attorneys, and those per­
sons in active-concert or participation with
them are hereby permanently enjoined from
directly or indirectly:
1.

engaging in activity subject to penalty
under 26 U.S.C. § 6700, including the or­
ganizing, selling, participation in the

12 Because Defendants submitted numerous materials outside
of the pleadings in support of its motion to dismiss, the United
States cross-moved for summary judgment, .and Defendants have
had an opportunity to reply to the cross-motion, Defendants’ mo­
tion is properly considered as one made under Rule 56. See Fed.
R. Civ. P. 12(b). Even without converting Defendants’ motion, this
matter is fully resolved upon Plaintiff’s cross-motion for sum­
mary judgment.

App. 153
organization, or participation in the sale
of any plan or arrangement and making
a statement regarding the securing of any
tax benefit that they know or have reason
to know is false or fraudulent as to any
material matter;
2.

engaging in activity subject to penalty
under § 6701, including preparing or as­
sisting in the preparation of a document
related to a matter material to the inter­
nal revenue laws that includes a position
that they know will, if used, result in an
understatement of tax liability;

3.

promoting, marketing, organizing, sell­
ing, or receiving payment for any plan or
arrangement regarding the securing of
any tax benefit that they know or have
reason to know is false or fraudulent as to
any material matter;

4.

engaging in any other activity subject to
penalty under IRC §§ 6700 or 6701 or
other penalty provision of the Internal
Revenue Code;

5.

advising or instructing persons and/or
entities that they are not required to file
federal tax returns or pay federal taxes;

6.

selling, distributing or furnishing any
document, newsletter, book, manual,
videotape, audiotape, or other material
purporting to enable individuals to dis­
continue or stop withholding, or payment
of, federal taxes;

App. 154
7.

instructing, advising, or assisting anyone
to stop withholding or paying of federal
employment or income taxes; and

8.

obstructing or advising or assisting any­
one to obstruct IRS examinations, collec­
tions, or other IRS proceedings.

b.

Defendants shall, at their own expense, notify
all persons who have purchased or otherwise
obtained their tax plans, arrangements, and
materials of this Memorandum, Decision and
Order and provide them with a copy of this
Memorandum, Decision and Order;

c.

Defendants shall produce to counsel for the
United States a list identifying by name, ad­
dress, e-mail address, telephone number, and.
Social Security number, all persons and enti­
ties who have been provided Defendants’ tax
preparation materials, forms, and other mate­
rials containing false information and other­
wise likely to cause others to violate the tax
laws of the United States;

d.

Defendants, and anyone in active concert or
participation with them, shall remove from
their websites and all other websites over
which they have control, all tax-fraud scheme
promotional materials, false commercial speech
concerning the internal revenue laws, and
speech likely to incite others imminently to
violate the internal revenue laws;

e.

Defendants shall remove from its websites all
abusive tax shelter promotional materials,
false commercial speech, and materials

App. 155
designed to incite others to violate the law (in­
cluding tax laws), and, for a period of one year
from the date of this Memorandum, Decision
& Order, display prominently on the first page
of the website an attachment of this Memo­
randum, Decision and Order;
f.

Defendants shall immediately implement the
terms of this injunction and provide the Court
with an affidavit of compliance within twentyone days of the date of this Decision and
Order; and

g-

This Court shall retain jurisdiction concern­
ing Defendants’ compliance with the injunc­
tive relief.

IT IS SO ORDERED.
Dated: August 9,2007
/s/ Thomas J. McAvoy______
Thomas J. McAvoy
Senior, U.S. District Judge

App. 156
APPENDIX O
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

Decided May 8, 2007

Argued October 6, 2006

No. 05-5359
We The People Foundation, Inc.,
Appellants

et al.,

v.
United States of America,
Appellees

et al.,

Appeal from the United States District Court
for the District of Columbia
(No. 04cv01211)

(Filed May 8, 2007)
Mark Lane argued the cause for appellants. With
him on the briefs was Robert L. Schulz, pro se.
Carol Barthel, Attorney, U.S. Department of Jus­
tice, argued the cause for appellees. With her on the
brief were Kenneth L. Wainstein, U.S. Attorney at the
time the brief was filed, and Kenneth L. Greene, Attor­
ney, Bruce R. Ellisen and Kenneth W. Rosenberg, Attor­
neys, entered appearances.

App. 157
Before: Ginsburg, Chief Judge, and ROGERS and
Kavanaugh, Circuit Judges.
Opinion for the Court filed by Circuit Judge Ka­
in which Chief Judge Ginsburg and Circuit
Judge Rogers join.
vanaugh,

Concurring opinion filed by Circuit Judge Rogers.
Kavanaugh, Circuit Judge: Ratified in 1791, the
First Amendment to the United States Constitution
provides in part that “Congress shall make no law ...
abridging ... the right of the people ... to petition the
Government for a redress of grievances.” Plaintiffs are
citizens who petitioned various parts of the Legislative
and Executive Branches for redress of a variety of
grievances that plaintiffs asserted with respect to the
Government’s tax, privacy, and war policies. Alleging
that they did not receive an adequate response, plain­
tiffs sued to compel a response from the Government.
Plaintiffs contend that the First Amendment
guarantees a citizen’s right to receive a government
response to or official consideration of a petition for re­
dress of grievances. Plaintiffs’ argument fails because,
as the Supreme Court has held, the First Amendment
does not encompass such a right. See Minn. State Bd.
for Cmty Colls, v. Knight, 465 U.S. 271,283, 285 (1984);
Smith v. Arkansas State Highway Employees, 441 U.S.
463,465 (1979).
I

App. 158
Plaintiffs are numerous individuals and an organ­
ization that creatively calls itself “We the People.” For
purposes of this appeal, we take the allegations in the
complaint as true. According to plaintiffs, they have en­
gaged since 1999 in “a nationwide effort to get the gov­
ernment to answer specific questions” regarding what
plaintiffs view as the Government’s “violation of the
taxing clauses of the Constitution” and “violation of the
war powers, money and ‘privacy’ clauses of the Consti­
tution.” Joint Appendix (“J.A”) 80 (Am. Compl. H 3).
Plaintiffs submitted petitions with extensive lists of in­
quiries to various government agencies. On March 16,
2002, for example, plaintiffs submitted a petition with
hundreds of inquiries regarding the tax code to a Mem­
ber of Congress and to various parts of the Executive
Branch, including the Department of Justice and the
Department of the Treasury. On November 8, 2002,
plaintiffs presented four petitions to each Member of
Congress. Those petitions concerned the Government’s
war powers, privacy issues, the Federal Reserve Sys­
tem, and the tax code. On May 10, 2004, plaintiffs
submitted a petition regarding similar issues to the
Executive Branch, including the Department of Justice
and the Department of the Treasury.
Plaintiffs contend that the Legislative and Execu­
tive Branches have responded to the petitions with “to­
tal silence and a lack of acknowledgment.” J.A. 85 (Am.
Compl. H 35). In protest, some plaintiffs have stopped
paying federal income taxes.
Based on their view that the Government has not
sufficiently responded to their petitions, plaintiffs filed

App. 159
suit in the United States District Court for the District
of Columbia. They raised two claims. First, plaintiffs
contend that the Government violated their First
Amendment right to petition the Government for a re­
dress of grievances by failing to adequately respond to
plaintiffs’ petitions. In particular, plaintiffs contend
that the President, the Attorney General, the Secre­
tary of the Treasury, the Commissioner of the Internal
Revenue Service, and Congress neglected their respon­
sibilities under the First Amendment to respond to
plaintiffs’ petitions. Plaintiffs want the Government to
enter into “good faith exchanges” with plaintiffs and to
provide “documented and specific answers” to the ques­
tions posed in the petitions. J.A. 78 (Am. Compl.).
Second, plaintiffs claim that government officials
— by seeking to collect unpaid taxes - have retaliated
against plaintiffs’ exercise of First Amendment rights.
Plaintiffs therefore asked the District Court to enjoin
the Internal Revenue Service, the Department of Justice,
and other federal agencies from retaliating against
plaintiffs’ exercise of their constitutional rights (in
other words, to prevent the Government from collect­
ing taxes from them).
The Government has responded that the federal
courts lack jurisdiction over either claim because the
Government has not waived its sovereign immunity
with respect to the causes of action asserted by plain­
tiffs. As to the Petition Clause claim, the Government
has contended in the alternative that plaintiffs have
failed to state a claim for which relief could be granted

App. 160
because the Petition Clause does not require the Gov­
ernment to respond to or officially consider petitions.
The District Court dismissed plaintiffs’ complaint.
We The People v. United States, No. 04-cv-1211, slip op.
at 6 (D.D.C. Aug. 31, 2005). The Court ruled that the
First Amendment does not provide plaintiffs with the
right to receive a government response to or official
consideration of their petitions. Id. at 2-3. In addition,
the District Court concluded that the Anti-Injunction
Act bars plaintiffs’ claim for injunctive relief with re­
spect to the collection of taxes. See id. at 5 (citing 26
U.S.C. § 7421).
II
Plaintiffs raise two legal arguments on appeal.
First, plaintiffs contend that they have a First Amend­
ment right to receive a government response to or offi­
cial consideration of their petitions. Second, plaintiffs
argue that they have the right to withhold payment of
their taxes until they receive adequate action on their
petitions.
The Government renews its argument that plain­
tiffs’ claims are barred by sovereign immunity. In re­
sponse, plaintiffs have contended that Section 702 of
the Administrative Procedure Act waives the Govern­
ment’s sovereign immunity. That section provides: “A
person suffering legal wrong because of agency action,
or adversely affected or aggrieved by agency action
within the meaning of a relevant statute, is entitled to
judicial review thereof.... The United States may be

App. 161
named as a defendant in any such action....” 5 U.S.C.
§ 702. The Government acknowledges that Section 702
waives sovereign immunity from suits for injunctive
relief. See Dep’t of the Army v. Blue Fox, Inc., 525 U.S.
255, 260-61 (1999) (describing Section 702 as waiving
the Government’s immunity from actions seeking re­
lief other than money damages); Trudeau v. FTC, 456
F.3d 178,186 (D.C. Cir. 2006) (“[Tjhere is no doubt that
§702 waives the Government’s immunity from actions
seeking relief other than money damages.”) (internal
quotation omitted). The Government contends, how­
ever, that plaintiffs’ claims fall within an exception to
Section 702 that provides: “Nothing herein . . . affects
other limitations on judicial review. ...” 5 U.S.C. § 702.
The Government further argues that the Anti-Injunc­
tion Act presents just such a barrier to judicial relief in
this case because of the Act’s provision that “no suit for
the purpose of restraining the assessment or collection
of any tax shall be maintained in any court by any per­
son.” 26 U.S.C. § 7421(a).
We agree with the Government that the Anti-In­
junction Act precludes plaintiffs’ second claim related
to collection of taxes. See Bob Jones Univ. v. Simon, 416
U.S. 725,726-27,749-50 (1974). In asserting that claim,
plaintiffs seek to restrain the Government’s collection
of taxes, which is precisely what the Anti-Injunction
Act prohibits, notwithstanding that plaintiffs have
couched their tax collection claim in constitutional
terms. See Alexander v. “Americans United” Inc., 416
U.S. 752, 759-60 (1974).

App. 162
Plaintiffs also raise, however, a straight First
Amendment Petition Clause claim - namely, that they
have a right to receive a government response to or of­
ficial consideration of their various petitions. By its
terms, the Anti-Injunction Act does not bar that claim,
and Section 702 waives the Government’s sovereign
immunity from this suit for injunctive relief, at least
with respect to plaintiffs’ allegations regarding actions
of certain of the named defendants. See 26 U.S.C.
§ 7421; cf. Trudeau, 456 F.3d at 187. We therefore will
consider that claim on the merits.
Ill
The First Amendment to the Constitution pro­
vides: “Congress shall make no law respecting an es­
tablishment of religion, or prohibiting the free exercise
thereof; or abridging the freedom of speech, or of the
press; or the right of the people peaceably to assemble,
and to petition the Government for a redress of griev­
ances.” U.S. Const, amend. I. Plaintiffs contend that
they have a right under the First Amendment to re­
ceive a government response to or official considera­
tion of a petition for a redress of grievances. We
disagree.
In cases involving petitions to state agencies, the
Supreme Court has held that the Petition Clause does
not provide a right to a response or official considera­
tion. In Smith v. Arkansas State Highway Employees,
for example, state highway commission employees ar­
gued that a state agency violated the First Amendment

App. 163
by not responding to or considering grievances that
employees submitted through their union. See 441 U.S.
463, 463-64 & n.l (1979). In response, the Court held
that “the First Amendment does not impose any af­
firmative obligation on the government to listen, to re­
spond or, in this context, to recognize the association
and bargain with it.” Id. at 465.
Likewise, in Minnesota State Board for Commu­
nity Colleges v. Knight, the Supreme Court evaluated a
state law that required public employers to discuss cer­
tain employee matters exclusively with a union repre­
sentative; this prevented nonunion employees from
discussing those matters with their employers. 465
U.S. 271, 273 (1984). Holding that the state statutory
scheme had not “unconstitutionally denied an oppor­
tunity to participate in their public employer’s making
of policy,” the Court reiterated: “Nothing in the First
Amendment or in this Court’s case law interpreting
it suggests that the rights to speak, associate, and
petition require government policymakers to listen or
respond to individuals’ communications on public is­
sues.” Id. at 285, 292. Therefore, the Court concluded
that individuals “have no constitutional right as mem­
bers of the public to a government audience for their
policy views.” Id. at 286.
Plaintiffs contend that Smith and Knight do not
govern their claims in this case because those cases ad­
dressed petitions to state officials regarding public pol­
icy, not claims that the Federal Government has
violated the Constitution. Plaintiffs’ attempted distinc­
tion is at best strained. In both cases, the Supreme

App. 164
Court flatly stated that the First Amendment, which
has been incorporated against the States by the Four­
teenth Amendment, does not provide a right to a re­
sponse to or official consideration of a petition. Knight,
465 U.S. at 285; Smith, 441 U.S. at 465. Nothing in the
two Supreme Court opinions hints at a limitation on
their holdings to certain kinds of petitions or certain
levels of Government. In short, the Supreme Court
precedents in Smith and Knight govern this case.
IV
Plaintiffs cite the work of several commentators
who suggest that Smith and Knight overlooked im­
portant historical information regarding the right to
petition. Those commentators point to the government
practice of considering petitions in some quasi-formal
fashion from the 13th century in England through
American colonial times - a practice that continued in
the early years of the American Republic. Based on this
historical practice,, plaintiffs and these commentators
contend that the Petition Clause should be interpreted
to incorporate a right to a response to or official consid­
eration of petitions. See, e.g., Stephen A. Higginson, A
Short History of the Right to Petition Government for
the Redress of Grievances, 96 Yale L.J. 142,155 (1986);
James E. Pfander, Sovereign Immunity and the Right
to Petition: Toward a First Amendment Right to Pursue
Judicial Claims Against the Government, 91 Nw. U. L.
Rev. 899, 904-05 & n.22 (1997); Julie M. Spanbauer,
The First Amendment Right to Petition Government for
a Redress of Grievances: Cut From a Different Cloth, 21

App. 165
Hastings Const. L.Q. 15,17-18 (1993); Note, A Petition
Clause Analysis of Suits Against the Government: Im­
plications for Rule 11 Sanctions, 106 Harv. L. Rev.
1111, 1116-18 (1993); cf. David C. Frederick, John
Quincy Adams, Slavery, and the Disappearance of the
Right of Petition, 9 Law & Hist Rev. 113, 116-18, 141
(1991).
Other scholars disagree, arguing based on the
plain text of the First Amendment that the “right to
petition the government for a redress of grievances re­
ally is just a right to petition the government for a re­
dress of grievances.” Gary Lawson & Guy Seidman,
Downsizing the Right to Petition, 93 Nw. U. L. Rev. 739,
766 (1999); cf. Norman B. Smith, “Shall Make No Law
Abridging ...
An Analysis of the Neglected, but
Nearly Absolute, Right of Petition, 54 U. Cin. L. Rev.
1153,1190-91 (1986). These scholars note that the Pe­
tition Clause by its terms refers only to a right “to pe­
tition”; it does not also refer to a right to response or
official consideration. See N. Bailey, An Universal Et­
ymological English Dictionary (24th ed. 1782) (“To
petition”: “to present or put up a Petition”); S. Johnson,
A Dictionary of the English Language (6th ed. 1785)
(“To petition”: “To solicite; to supplicate”). As they sug­
gest, moreover, the Framers and Ratifiers did not in­
tend to incorporate every historical practice of British
or colonial governments into the text of the Consti­
tution. See Lawson & Seidman, 93 Nw. U. L. Rev. at
756-57; cf. Williams v. Florida, 399 U.S. 78, 92-93
(1970); Browning-Ferris Indus. ofVt., Inc. v. Kelco Dis­
posal, Inc., 492 U.S. 257, 274-76 (1989) (“Despite this

App. 166
recognition of civil exemplary damages as punitive in
nature, the Eighth Amendment did not expressly in­
clude it within its scope.”).
We need not resolve this debate, however, because
we must follow the binding Supreme Court precedent.
See Tenet v. Doe, 544 U.S. 1, 10-11 (2005). And under
that precedent, Executive and Legislative responses to
and consideration of petitions are entrusted to the dis­
cretion of those Branches.
The judgment of the District Court is affirmed.
So ordered.

Rogers, Circuit Judge, concurring: The text of the
Petition Clause of the First Amendment does not ex­
plicitly indicate whether the right to petition includes
a right to a response. Appellants ask the court to con­
sider the text in light of historical evidence of how the
right to petition was understood at the time the First
Amendment was adopted. Essentially, they contend
that the Petition Clause should be read in light of
contemporary understanding, which they suggest in­
dicates that the obligation to respond was part and
parcel of the right to petition.
As the court points out, we have no occasion to re­
solve the merits of appellants’ historical argument,
given the binding Supreme Court precedent in Smith
v. Arkansas State Highway Employees, 441 U.S. 463
(1979), and Minnesota State Board for Community

App. 167
Colleges v. Knight, 465 U.S. 271 (1984). Op. at 9. That
precedent, however, does not refer to the historical ev­
idence and we know from the briefs in Knight that the
historical argument was not presented to the Supreme
Court.
The Supreme Court’s interpretation of the Consti­
tution has been informed by the understanding that:
“The provisions of the Constitution are not
mathematical formulas having their essence
in their form; they are organic living institu­
tions transplanted from English soil. Their
significance is vital not formal; it is to be gath­
ered not simply by taking the words and a dic­
tionary, but by considering their origin and
the line of their growth.”
Konigsberg v. State Bar of California, 366 U.S. 36, 50
n.10 (1961) (quoting Gompers v. United States, 233 U.S.
604, 610 (1914)). Even where the plain text yields a
clear interpretation, the Supreme Court has rejected a
pure textualist approach in favor of an analysis that
accords weight to the historical context and the under­
lying purpose of the clause at issue. For example, in
Lynch v. Donnelly, 465 U.S. 668 (1984), the Supreme
Court stated that “[t]he history may help explain why
the Court consistently has declined to take a rigid,
absolutist view of the Establishment Clause. We
have refused ‘to construe the Religion Clauses with a
literalness that would undermine the ultimate consti­
tutional objective as illuminated by history.’ ” Id. at 678
(quoting Walz v. Tax Comm’n, 397 U.S. 664,671 (1970));

App. 168
see id. at 673-75. Nor is the Supreme Court’s rejection
of literalism limited to the First Amendment.1

1 For instance, in Eleventh Amendment cases, the Supreme
Court has rejected “ahistorical literalism,” Alden v. Maine, 527
U.S. 706, 730 (1999), and instead has turned to “history, practice,
precedent, and the structure of the Constitution,” id. at 741; see
id. at 711-24, 730-35, 741-44, explaining that “[a] 1 though the text
of the Amendment would appear to restrict only the Article III
diversity jurisdiction of the federal courts, ‘we have understood
the Eleventh Amendment to stand not so much for what it says,
but for the presupposition ... which it confirms,’ ” id. at 729
(omission in original) (quoting Seminole Tribe of Florida v. Flor­
ida, 517 U.S. 44, 54 (1996) (quoting Blatchford v. Native Village
ofNoatak, 501 U.S. 775,779 (1991))); see also Seminole Tribe, 517
U.S. at 69-70; Principality ofMonaco v. Mississippi, 292 U.S. 313,
320-26, 330 (1934); Hans v. Louisiana, 134 U.S. 1, 10-11, 15
(1890). In construing the Fifth Amendment in Ullmann v. United
States, 350 U.S. 422, 424-25, 438-39 (1956), the Supreme Court
rejected the contention that the privilege against self-incrimina­
tion protects an individual who is given immunity from prosecu­
tion from being forced to testify before a grand jury: For “the
privilege against self-incrimination[,] ... it is peculiarly true that
‘a page of history is worth a volume of logic.’ For the history of the
privilege establishes not only that it is not to be interpreted liter­
ally, but also that its sole concern is .. . with the danger to a wit­
ness forced to give testimony” that may lead to criminal charges.
Id. at 438-39 (internal quotation marks omitted) (citations omit­
ted) (quoting New York Trust Co. v. Eisner, 256 U.S. 345, 349
(1921)). And in interpreting the Ex Post Facto Clause, the Su­
preme Court in Collins v. Youngblood, 497 U.S. 37 (1990), relied
on history rather than adopting a literal construction:
Although the Latin phrase “ex post facto” literally en­
compasses any law passed “after the fact,” it has long
been recognized by this Court that the constitutional
prohibition on ex post facto laws applies only to penal
statutes which disadvantage the offender affected by
them. As early opinions in this Court explained, “ex

App. 169
In the context of the First Amendment, the Su­
preme Court has repeatedly emphasized the signifi­
cance of historical evidence. A few examples suffice
to illustrate the point. In Globe Newspaper Co. v. Su­
perior Court, 457 U.S. 596 (1982), the Supreme Court
acknowledged that:
[The] right of access to criminal trials [by the
press] is not explicitly mentioned in terms in
the First Amendment. But we have long es­
chewed any narrow, literal conception of the
Amendment’s terms, for the Framers were
concerned with broad principles, and wrote
against a background of shared values and
practices. The First Amendment is thus broad
enough to encompass those rights that, while
not unambiguously enumerated in the very
terms of the Amendment, are nonetheless
necessary to the enjoyment of other First
Amendment rights.
Id. at 604 (internal quotations marks omitted) (cita­
tions omitted). In Lynch v. Donnelly, the Supreme
Court acknowledged that its “interpretation of the
post facto law” was a term of art with an established
meaning at the time of the framing of the Constitution.
Id. at 41 (internal citations omitted) (citing Calder v. Bull, 3 Dali.
386 (1798)); see Minnesota v. Carter, 525 U.S. 83, 88-89 (1998);
Maryland v. Craig, 497 U.S. 836, 844-49 (1990); Keystone Bitumi­
nous Coal Ass’n v. DeBenedietis, 480 U.S. 470, 502-03 (1987);
Goldstein v. Califoria, 412 U.S. 546, 561-62 (1973); Gravel v.
United States, 408 U.S. 606, 616-18 (1972); Wright v. United
States, 302 U.S. 583,607 (1938) (Stone, J., concurring); Olmstead
d. United States, 277 U.S. 438, 476-77 (1928) (Brandeis, J., dis­
senting); Boyd v. United States, 116 U.S. 616, 634-35 (1886).

App. 170
Establishment Clause has comported with what his­
tory reveals was the contemporaneous understanding
of its guarantees.” 465 U.S. at 673; see id. at 673-77. In
Marsh v. Chambers, 463 U.S. 783, 786-94 (1983), the
Supreme Court looked to contemporary practice from
the early sessions of Congress and to later congres­
sional practice in holding that paid legislative chap­
lains and opening prayers do not violate the First
Amendment. See Minneapolis Star & Tribune Co. v.
Minn. Comm’r of Revenue, 460 U.S. 575,583-85 (1983);
Engel v. Vitale, 370 U.S. 421, 425-33 (1962); Everson v.
Bd. of Educ., 330 U.S. 1, 7-15 (1947); Grosjean v. Am.
Press Co., 297 U.S. 233,240,245-49 (1936);Near v. Min­
nesota, 283 U.S. 697, 713-18 (1931).2
Appellants point to the long history of petitioning
and the importance of the practice in England, the
American Colonies, and the United States until the
1830’s as suggesting that the right to petition was com­
monly understood at the time the First Amendment
was proposed and ratified to include duties of consid­
eration and response. See Julie M. Spanbauer, The
First Amendment Right to Petition Government for
a Redress of Grievances: Cut From a Different Cloth,
21 Hastings Const. L.Q. 15, 22-33 (1993); Norman B.
2 Similar analysis is found in the Supreme Court’s interpre­
tation of other provisions of the Constitution. See Crawford v.
Washington, 541 U.S. 36,42-50 (2004) (Sixth Amendment); Atwa­
ter v. City of Logo Vista, 532 U.S. 318, 326-40, 345 n.14 (2001)
(Fourth Amendment); U.S. Term Limits, Inc. v. Thornton, 514
U.S. 779, 782-83, 800-15 (1995) (Tenth Amendment); Hamelin v.
Michigan, 501 U.S. 957,975-85 (1991) (Eighth Amendment); Wesberry v. Sanders, 376 U.S. 1, 2-3, 7-17 (1964) (Art. I, § 2).

App. 171
Smith, “Shall Make No Law Abridging . . . An Anal­
ysis of the Neglected, but Nearly Absolute, Right of Pe­
tition, 54 U. Cin. L. Rev. 1153,1154-68,1170-75 (1986).
Based on the historical background of the Petition
Clause, “most scholars agree that the right to petition
includes a right to some sort of considered response.”
James E. Pfander, Sovereign Immunity and the Right
to Petition: Toward a First Amendment Right to Pursue
Judicial Claims Against the Government, 91 Nw. U. L.
Rev. 899,905 n.22 (1997); see David C. Frederick, John
Quincy Adams, Slavery, and the Right of Petition, 9
Law & Hist. L. Rev. 113,141 (1991); Spanbauer, supra,
at 40-42; Stephen A. Higginson, Note, A Short History
of the Right to Petition, 96 Yale L.J. 142,155-56 (1986);
Note, A Petition Clause Analysis of Suits Against the
Government: Implications for Rule 11 Sanctions, 106
Harv. L. Rev. 1111, 1116-17, 1119-20 (1993); see also
Akhil Reed Amar, The Bill of Rights as a Constitution,
100 Yale L.J. 1131, 1156 (1991) (lending credence to
Higginson’s argument that the Petition Clause implies
a duty to respond). Even those who take a different
view, based on a redefinition of the question and differ­
ences between English and American governments,
acknowledge that there is “an emerging consensus of
scholars” embracing appellants’ interpretation of the
right to petition. See Gary Lawson & Guy Seidman,
Downsizing the Right to Petition, 93 Nw. U. L. Rev. 739,
756 (1999).
The sources cited by appellants indicate that
“[t]he debates over the inclusion of the right to petition
reveal very little about why the convention delegates

App. 172
may have regarded the right as important or what the
‘framers’ intended with respect to the substantive
meaning of the right.” Frederick, supra, at 117 n.19
(citing 4 Bernard Schwartz, The Roots of the Bill of
Rights 762-66,840-42 (1980)); see Higginson, supra, at
155-56. But neither textual omission3 nor the absence
of explicit statements by Framers or Ratifiers on the
precise issue has been dispositive in the Supreme
Court’s First Amendment jurisprudence. Instead, the
historical context and the underlying purpose have
been the hallmarks of the Supreme Court’s approach
to the First Amendment. See, e.g., Buckley v. Valeo, 424
U.S. 1, 14-15 (1976); New York Times Co. v. Sullivan,
376 U.S. 254, 269-71 (1964); Roth v. United States, 354
U.S. 476, 481-84, 488 (1957); Beauharnais v. Illinois,
343 U.S. 250, 254-55 (1952).

3 See, e.g., Globe Newspaper, 457 U.S. at 604. The Supreme
Court has adopted the same approach in interpreting other pro­
visions of the Constitution. For example, in holding that the
Speech or Debate Clause applies to a Senator’s aide even though
it mentions only “Senators and Representatives,” the Supreme
Court in Gravel observed that although the Clause “speaks only
of‘Speech or Debate,’ ” its precedent, consistent with adhering to
the underlying purpose of the Clause, “ha[d] plainly not taken a
literalistic approach in applying the privilege” to protect commit­
tee reports, resolutions, and voting. Gravel, 408 U.S. at 617; see
id. at 616-18. In the Fourth Amendment context, although the
Amendment speaks only to protecting people in their houses, the
Supreme Court in Carter noted that its precedent, in some situa­
tions, had extended that protection to apply to individuals’ pri­
vacy in other people’s houses. Carter, 525 U.S. at 88-89; see also
Faretta v. California, 422 U.S. 806, 819 & n.15 (1975); Goldstein,
412 U.S. at 561-62; Principality of Monaco, 292 U.S. at 320-23,
330; Hans, 134 U.S. at 10-11,15.

App. 173
The Supreme Court’s free speech precedent is il­
lustrative. Although the textual meaning of “speech” is
as clear, in terms of dictionary definitions, as the mean­
ing of “petition,” the Supreme Court has interpreted
“speech” broadly in order to protect freedom of expres­
sion:
The First Amendment literally forbids the
abridgment only of “speech,” but we have long
recognized that its protection does not end at
the spoken or written word.... [W]e have
acknowledged that conduct may be “suffi­
ciently imbued with elements of communica­
tion to fall within the scope of the First and
Fourteenth Amendments.”
Texas v. Johnson, 491 U.S. 397, 404 (1989) (quoting
Spence v. Washington, 418 U.S. 405, 409 (1974)); cf.
NAACP v. Button, 371 U.S. 415,430 (1963). The text of
the First Amendment mentions neither writing nor
conduct, and at the time of the Founding, as now, the
word “speech” meant expression through “vocal words.”4
4 2 Samuel Johnson, A Dictionary of the English Language
(6th ed. 1785) (“speech”: “The power of articulate utterance; the
power of expressing thoughts by vocal words,” “Language; words
considered as expressing thoughts,” "Particular language; as dis­
tinct from others,” “Any thing spoken,” “Talk; mention,” “Oration,
harangue,” “Declaration of thoughts”); 2 Thomas Sheridan, A
Complete Dictionary of the English Language (3d ed. 1790)
(“speech”: “The power of articulate utterance, the power of ex­
pressing thoughts by vocal words; language, words considered as
expressing thoughts; particular language as distinct from others;
any thing spoken; talk, mention; oration, harangue”); see Nathan
Bailey, An Universal Etymological English Dictionary (24th
ed. 1782) (“speech”: “Language, Discourse”); see also The Ameri­
can Heritage Dictionary of the English Language 1731 (3d ed.

App. 174
Yet the Supreme Court has considered both the history
and purpose of the First Amendment in according a
broad interpretation to the Free Speech Clause. Look­
ing, in part, to the Framers’ intent, the Supreme Court
has held that the Free Speech Clause applies to writ­
ten communications, see City of Ladue v. Gilleo, 512
U.S. 43, 45, 58 (1994); Bolger v. Youngs Drug Prods.
Corp., 463 U.S. 60, 61 (1983); Martin u Struthers, 319
U.S. 141, 141-42,149 (1943), as well as a broad range
of expressive activities, including spending to promote
a cause, First Nat’lBank v. Bellotti, 435 U.S. 765, 767
(1978); Buckley, 424 U.S. at 19-20, burning the Ameri­
can flag, see Johnson, 491 U.S. at 399-400, 404-06, and
dancing nude, see City of Erie v. Pap’s A.M., 529 U.S.
277, 289 (2000); Barnes v. Glen Theatre, Inc., 501 U.S.
560, 565-66 (1991). Furthermore, although the dic­
tionaries do not exclude any particular types of oral
communication from the definition of “speech,” the Su­
preme Court has held, in light of the historical context,
that the First Amendment does not protect obscene
speech, Roth, 354 U.S. at 481-85, 488; Miller v. Califor­
nia, 413 U.S. 15, 23 (1973), libelous speech, Beauharnais, 343 U.S. at 254-55, 266, false commercial speech,
1992) (“speech”: “The faculty or act of speaking,” “The faculty or
act of expressing or describing thoughts, feelings, or perceptions
by the articulation of words,” “Something spoken; an utterance,”
“Vocal communication; conversation”); The New Oxford Ameri­
can Dictionary 1630 (2d ed. 2005) (“speech”: “the expression of
or the ability to express thoughts and feelings by articulate
sounds”); 16 The Oxford English Dictionary 175-77 (2d ed.
1989) (“speech”: “The act of speaking; the natural exercise of the
vocal organs; the utterance of words or sentences; oral expression
of thought or feeling”).

App. 175
see Cent. Hudson Gas & Elec. Corp. v. Pub. Serv.
Comm’n, 447 U.S. 557, 563-64 (1980); Va. State Bd. of
Pharmacy v. Va. Citizens Consumer Council, 425 U.S.
748, 77172 (1976), or speech that is “likely to cause a
breach of the peace,” Chaplinsky v. New Hampshire,
315 U.S. 568, 569, 573 (1942).
Of course, this court cannot know whether the tra­
ditional historical analysis would have resonance with
the Supreme Court in a Petition Clause claim such
as appellants have brought. It remains to be seen
whether the Supreme Court would agree to entertain
the issue, much less whether it would agree with ap­
pellants and “most scholars” that the historical evi­
dence provides insight into the First Congress’s
understanding of what was meant by the right to peti­
tion and reevaluate its precedent, or conversely reject
that analysis in light of other considerations, such as
the nature of our constitutional government. No doubt
it would present an interesting question. For now it
suffices to observe that appellants’ emphasis on con­
temporary historical understanding and practices is
consistent with the Supreme Court’s traditional inter­
pretative approach to the First Amendment.

App. 176
APPENDIX P
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF’ COLUMBIA
WE THE PEOPLE, et al.,
Plaintiffs,
v.
UNITED STATES, et al.,
Defendants.

)
)
)
)
)

Civil Action No. 04-1211
(EGS)

OPINION & ORDER
(Filed Aug. 31, 2005)
Plaintiff We the People Foundation for Constitu­
tional Education, Inc. and several individually-named
plaintiffs, including pro se plaintiff Robert L. Schultz,
bring this action against the United States of America,
the U.S. Treasury Department, the Internal Revenue
Service, and the U.S. Department of Justice. Plaintiffs’
Complaint “arises from the failure of the President of
the United States and his Attorney General and his
Secretary of the Treasury and his Commissioner of the
Internal Revenue Service, and the failure of the United
States Congress, to properly respond to Plaintiffs’ Pe­
titions for Redress of Grievances against their govern­
ment, namely: grievances relating to violations of the
U.S. Constitution’s war powers, taxing, money, and
“privacy” clauses.” See Plaintiffs’ Amended Complaint
(“Compl.”) at 66. Plaintiffs also allege that the Exec­
utive Branch has retaliated against plaintiffs for

App. 177.
petitioning the government and for “Peaceably Assem­
bling and Associating with other individuals under the
umbrella of the We the People Foundation for Consti­
tutional Education and the We the People Congress.”
Id.
Pending before the Court are defendants’ Motion
to Dismiss and plaintiffs’ Motion to Amend the Com­
plaint. Upon consideration of the motions, the opposi­
tions thereto, and the replies in support thereof, and
for the following reasons, it is hereby
ORDERED that the defendants’ Motion to Dis­
miss is GRANTED. It is further
ORDERED that the plaintiffs’ Motion for Leave
to File Amended Complaint is DENIED.
I.

Motion to Dismiss
A. Standard of Review

A motion to dismiss for failure to state a claim un­
der Federal Rule of Civil Procedure 12(b)(6) should be
granted when it appears “beyond doubt” that there is
no set of facts that plaintiffs can prove that will entitle
them to relief. See Sparrow v. United Air Lines, Inc.,
216 F.3d 1111, 1114 (D.C. Cir. 2000). “Accordingly, at
this stage in the proceedings, the Court must accept as
true all of the complaint’s factual allegations.” Johnson
v. District of Columbia, 190 F. Supp. 2d 34, 39 (D.D.C.
2002).

App. 178
B. Discussion
The First Amendment provides that “Congress
shall make no law .. . abridging . . . the right of the
people peaceably to assemble, and to petition the
Government for a redress of grievances.” U.S. Const.
Amend. I. Plaintiffs contend that they therefore have a
constitutional right to a response to the petitions they
have filed with the various defendants, and that de­
fendants have committed constitutional torts against
plaintiffs in failing to respond to their petitions. See PI.
Opposition to Def. Motion to Dismiss (“PI. Opp.”) at 910. The Supreme Court, however, has held that “the
First Amendment does not impose any affirmative ob­
ligation on the government to listen, to respond or, in
this context, to recognize the association and bargain
with it.” See Smith v. Ark. State Highway Employees,
Local 1315,441 U.S. 463,465 (1979). Plaintiffs’ claims
that the defendants are obligated to “properly” respond
to plaintiffs’ petitions shall thus be dismissed for fail­
ure to state a claim upon which relief may be granted.
Plaintiffs’ claims based on the “retaliatory actions”
the defendants have allegedly taken against plaintiffs
for exercising their First Amendment rights are simi­
larly flawed. The governmental actions plaintiffs com­
plain of include sending plaintiffs threatening letters,
placing liens on their property, raiding plaintiffs’
homes or offices, and forcing plaintiffs to appear before
administrative or other tribunals. Compl. at H 48. It
appears that because plaintiffs have not received re­
sponses to their petitions, they have “decided to give
further expression to their Rights under the First

App. 179
Amendment to Speech, Assembly and Petition, by not
withholding and turning over to government direct,
un-apportioned taxes on Plaintiffs’ labor - money
earned in direct exchange for their labor (not to be con­
fused with money “derived from” labor).” PI. Opp. at 3031.
Congress has provided methods for challenging
the legality of such enforcement actions and to prevent
governmental abuse. For example, taxpayers have the
right to notice and a hearing before the federal govern­
ment can file a notice of a tax lien or levy. 26 U.S.C.
§§ 6320, 6330. Citizens have a right of action for
wrongful levies or other collection actions and for
wrongful failure to release liens. Id. at §§ 7426(a). And
taxpayers may sue to recover money erroneously or il­
legally assessed or collected by the government. Id. at
§ 7422(a).
Plaintiffs do not, however, have a First Amend­
ment right to withhold money owed to the government
and to avoid governmental enforcement actions be­
cause they object to government policy. See, e.g., Adams
v. Comm’r, 170 F.3d 173,182 (3d Cir. 1999) (“Plaintiffs
engaging in civil disobedience through tax protests
must pay the penalties incurred as a result of engaging
in such disobedience.”); United States v. Rowlee, 899
F.2d 1275, 1279 (2d Cir. 1990) (“The consensus of this
and every other circuit is that liability for a false or
fraudulent return cannot be avoided by evoking the
First Amendment[.]”) (citing cases); United States v.
Kelley, 864 F.2d 569,576^77 (7th Cir.), cert, denied, 493
U.S. 811 (1989)(actions that constitute more than mere

App. 180
advocacy not protected by the First Amendment);
Welch v. United States, 750 F.2d 1101, 1108 (1st Cir.
1985) (“ [N] oncompliance with the federal tax laws is
conduct that is afforded no protection under the First
Amendment[.]”); United States u. Ness, 652 F.2d 890,
892 (9th Cir.), cert, denied, 454 U.S. 1126 (1981) (“Tax
violations are not a protected form of political dis­
sent.”); United States v. Malinowski, 472 F.2d 850, 857
(3d Cir. 1973) (“To urge that violating a federal law
which has a direct or indirect bearing on the object of
protest conduct protected by the First Amendment is
to endorse a concept having no precedent in any form
of organized society where standards of societal con­
duct are promulgated by some authority.”).
Moreover, the injunctive relief that plaintiffs seek,
that is, “a temporary injunction against the United
States Internal Revenue Service and the Department
of Justice and any other agency of the United States
that arguably may act in this matter under color of law,
from taking any further retaliatory actions against the
named plaintiffs in this proceeding,” is clearly barred
by the Anti-Injunction Act, 26 U.S.C. § 7421. See, e.g.,
Foodservice & Lodging Institute, Inc. v. Regan, 809 F.2d
842,844 (D.C. Cir. 1987) (“The Anti-Injunction Act pro­
vides that ‘no suit for the purpose of restraining the
assessment or collection of any tax shall be maintained
in any court by any person.” 26 U.S.C. § 7421(a) (1982).
The Declaratory Judgement Act provides that ‘[i]n a
case of actual controversy within its jurisdiction, ex­
cept with respect to Federal taxes . .. any court of the
United States . .. may declare the rights and other

App. 181
legal relations of any interested party seeking such
declaration, whether or not further relief is or could be
sought.’ 28 U.S.C. § 2201(a) (Supp. Ill 1985). By their
terms, these statutes clearly bar the appellant’s claims
for injunctive and declaratory relief as to the [chal­
lenged IRS regulations].”).
For the above cited reasons, plaintiffs’ complaint
must be dismissed for failure to state a claim, pursuant
to Fed. R. Civ. P. 12(b)(6).
II.

Motion for Leave to File Amended Com­
plaint

In light of the preceding discussion and the Court’s
ruling granting the defendants’ motion to dismiss the
complaint, plaintiffs’ motion for leave to amend their
complaint to add additional defendants, including the
President of the United States, the United States Con­
gress, the Commissioner of the Internal Revenue Ser­
vice and others, as well as adding 1,600 plaintiffs, shall
be DENIED as futile. See James Madison Ltd. v. Lud­
wig, 82 F.3d 1085,1099 (“Courts may deny a motion to
amend a complaint as futile ... if the proposed claim
would not survive a motion to dismiss.”) (citations
omitted); see also Nat’l Wrestling Coaches Ass’n v. U.S.
Dept. ofEduc., 263 F. Supp. 2d 82,103-04 (2003), aff’d,
366 F.3d 1047 (D.C. Cir. 2004), cert, denied, 125 S.Ct.
2537 (2005) (citing and discussing cases supporting a
district court’s discretion pursuant to Fed. R. Civ. P.
15(a) to deny a motion for leave to amend complaint on
the grounds of futility).

App. 182
III. Conclusion
For the reasons set forth herein, it is hereby OR­
DERED that the defendants’ motion to dismiss the
complaint is GRANTED and plaintiffs’ motion for
leave to amend their complaint is DENIED. An appro­
priate order accompanies this Opinion & Order.
Signed: EMMET G. SULLIVAN
U.S. District Judge
August 31, 2005

